No. _ _ _ __

IN THE SUPREME COURT OF THE UNITED STATES

STEPHEN M. PATTERSON, JR., PETITIONER
V.

UNITED STATES OF AMERICA, RESPONDENT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to proceed in forma pauperis pursuant to Supreme Court
Rule 12.2.
The United States Code provides that when a Criminal Justice Attorney has been
appointed pursuant to 18 U.S.C. ยง3006A, and Petitioner "petitions for a writ of certiorari, he
may do so without prepayment of fees or costs or security therefor and without filing the
affidavit required by section 1915(a) of title 28." 18 U.S.C. ยง3006A(d)(7). As such, no
affidavit is required to be filed in support of this Motion.
Petitioner has previously been granted leave to proceed in forma pauperis before
the United States Court of Appeals, Sixth Circuit. Because of his poverty, the Sixth Circuit
appointed the undersigned as Counsel pursuant to the Criminal Justice Act. The
undersigned Criminal Justice Act attorney desires to continue representation of Petitioner
in this matter, due to his appointment, and Petitioner's dire financial situation. However,

because of his financial position, Petitioner is unable to pay the costs of this case or to give
security therefor.
WHEREFORE, Petitioner, Stephen Patterson, asks this Court to grant this Motion to
Proceed in form a pauperis.
Respectfully Submitted,

3~ l<-::::f ~
STEVEN R. JAEGER
(KBA 35451)
THE JAEGER FIRM, PLLC
23 Erlanger Road
Erlanger, Kentucky 41018
TELE: (859) 342-4500
EMAIL: srjaeger@thejaegerfirm.com

Counsel for Petitioner

